           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      DISABILITY INSURANCE AND
  SUPPLEMENTAL SECURITY INCOME
         CLAIMS ALLOWED
           BUT NOT PAID

      June 2011   A-01-10-10177




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY

MEMORANDUM

Date:      June 20, 2011                                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Disability Insurance and Supplemental Security Income Claims Allowed But Not Paid
           (A-01-10-10177)


           OBJECTIVE
           The objective of our review was to identify Disability Insurance (DI) and Supplemental
           Security Income (SSI) claims medically allowed for disability benefits but not paid.

           BACKGROUND
           The Social Security Administration (SSA) provides DI and SSI disability benefits to
           eligible individuals under Titles II and XVI of the Social Security Act. 1 To receive
           disability benefits, an individual must first file an application with SSA. An SSA field
           office then determines whether the individual is performing substantial gainful activity
           and whether he or she meets the non-disability criteria for benefits. 2 If so, field office
           staff generally forwards the claim to the disability determination services (DDS) in the
           State or other responsible jurisdiction for a disability determination. Once the DDS
           makes a determination, it sends the claim to an SSA office for final processing.

           If the claimant disagrees with the initial disability determination, he or she can file an
           appeal within 60 days from the date SSA notifies him or her of the determination.
           Generally, an individual may request (1) reconsideration by the DDS, 3 (2) hearing by



           1
               Social Security Act, §§ 223 et seq. and 1611 et seq., 42 U.S.C. §§ 423 et seq. and 1382 et seq.
           2
             For DI benefits, the non-disability criteria include such factors as sufficient earnings. For SSI payments,
           the non-disability criteria include such factors as limited income and resources.
           3
            The reconsideration step of the administrative review process is eliminated for DDSs participating in the
           Disability Redesign Prototype (Alabama, Alaska, California—Los Angeles North and Los Angeles West
           Branches, Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania).
Page 2 - The Commissioner


an administrative law judge (ALJ), and (3) review by the Appeals Council (AC). After
completing the administrative review process, dissatisfied claimants may appeal to the
Federal courts.

According to SSA’s Office of Disability Program Management Information, there were
almost 8 million disability allowances for 2003 through 2005 and 2007 through 2009.
(See Appendix B for more detail on these cases.)

This audit is a continuation of our July 2010 audit of Disability Insurance and
Supplemental Security Income Claims Approved in 2006 But Not Paid (A-01-10-11009).
In that audit, we found that 45 claimants had not received their benefits because of
employee error while the individuals’ claims were processed. The first audit focused on
claims allowed in 2006, while the current audit includes 2003 through 2005 and 2007
through 2009.

We obtained files of all DI and SSI disability claims with a DDS, ALJ, or AC allowance in
Calendar Years (CY) 2003 through 2005 and 2007 through 2009. 4 Through analysis,
as of November 2010, we had identified 1,847 cases that appeared to need corrective
action by SSA. We referred these 1,847 cases to SSA’s Office of Operations for review
and appropriate action. Table 1 shows the number of cases referred to the Agency by
year of allowance. (See Appendix C for our scope and methodology.)


                      Table 1: Cases Referred by Year of Allowance
    Year            2003      2004    2005      2007      2008     2009                          Total
    Number
                     112           147          166         356          417          649        1,847
    of Cases
    Percent          6%             8%          9%          19%          23%         35%         100%

RESULTS OF REVIEW
Based on its review of the cases we identified and referred to the Agency, SSA staff
determined that some claimants were eligible for benefits not paid.




4
  The DDS files included records for the Social Security number holder and others who filed on his or her
record. The ALJ and AC files included only records for the Social Security number holder.
Page 3 - The Commissioner


Of the 1,847 cases we referred,
                                                             Results of Review
    • 317 (17 percent) were
       corrected, and SSA
       calculated about $4.8 million         317 Cases                                    1,290 Cases
       in past-due benefits in 296 of        Corrected                                     No Activity
                    5
       these cases;
                                            29 Cases
    • 29 (2 percent) did not need         No Corrective
       corrective action; 6              Action Needed

    • 211 (11 percent) were still                211 Cases
       being reviewed by SSA as of         Still Being Reviewed
                                                  By SSA
       May 2011; and
    • 1,290 (70 percent) appeared
       to have no activity related to our referrals as of May 2011.

Table 2 shows, by region, the number of cases we referred and the number of cases in
each area.

                                      Table 2: Cases by Region
                                                                No
                                 Cases        Cases                                           No
            SSA Region                                       Correction       Pending
                                Referred     Corrected                                      Activity
                                                              Needed
          Boston                   113               30            0             20             63
          New York                 204               36            4             24            140
          Philadelphia             228               48            3             26            151
          Atlanta                  407               59            6             43            299
          Chicago                  292               49            4             37            202
          Dallas                   267               44            4             32            187
          Kansas City               46                6            4              5             31
          Denver                    24                3            2              2             17
          San Francisco            207               33            2             15            157
          Seattle                   47                8            0              6             33
          International             12                1            0              1             10
          TOTAL                  1,847             317              29          211          1,290




5
 Of the 317 cases, 21 were not due benefits. For example, in some of these cases, the claimant was not
due benefits because he or she failed to cooperate with SSA.
6
    For example, in some of these cases, SSA paid benefits shortly before our referral.
Page 4 - The Commissioner


CASES WITH UNPAID ALLOWANCES

In 296 of the 317 cases SSA corrected, claimants should have received payments for
the medical allowance decision for which they were not paid. As of May 2011, the
Agency had calculated past-due benefits totaling approximately $4.8 million for
296 claimants. The average past-due benefit was $16,093, 7 and these past-due
benefits ranged from a low of $21 to a high of $96,394. These past-due benefits
occurred over an average of 30 months, ranging from 1 to 229 months. Of the
$4.8 million in past-due benefits, approximately

•     $2.22 million was paid to the claimants,8
•     $2.31 million was used to collect overpayments from other benefits the claimants
      were receiving, 9
•     $65,000 was paid to other people on the claimant’s record, and
•     $169,000 was paid to representatives. 10

Table 3 shows the range of past-due benefits SSA had calculated for the 296 claimants
as of May 2011.

                             Table 3: Summary of Past-Due Benefits
                                                                     Number of
                       Past-Due Benefits Range                                         Percent
                                                                     Claimants
        $0 to $10,000                                                   132              45%
        $10,001 to $25,000                                              107              36%
        $25,001 to $50,000                                               44              15%
        $50,001 to $100,000                                              13               4%
        TOTAL                                                           296             100%

We determined that 213 of the 296 claimants received some type of benefit from SSA
other than their unpaid allowance claim; therefore, these individuals may have believed
this was the only benefit they were entitled to receive. Additionally, the majority of
claimants with an unpaid allowance claim suffered from a mental disorder, which may


7
    The median was $11,471.
8
  This includes about $145,000 that the Agency was not able to pay immediately because of eligibility
factors.
9
    This includes one case where over $5,000 was applied to past-due child support and/or alimony.
10
  SSA calculates claimants’ representative fees (to attorneys and non-attorney representatives) based on
past-due benefits and the maximum amount that the Agency determines a representative can charge for
services. The Agency will withhold the fee from the claimant’s benefits and issue the payment directly to
the representative. 20 C.F.R. §§ 404.1720 and 416.1520.
Page 5 - The Commissioner


have affected their ability to follow up on their claim. 11 Table 4 summarizes the types of
disabilities that affected these claimants.

                           Table 4: Summary of Type of Disability
                                                                    Number of
                         Type of Disability                                            Percent
                                                                    Claimants
      Mental Disorders                                                 189                64%
      Musculoskeletal Disorders                                         40                14%
      Other Disabilities                                                67                22%
      TOTAL                                                            296               100%

For example, a man from Massachusetts filed for DI benefits in July 2009. The DDS
approved his claim in October 2009 based on a brain injury that occurred in
March 2007. As of November 2010, SSA still had not paid this claim because it was
developing the case for a representative payee. 12 We referred this case to SSA in
November 2010, and the Agency corrected the case in January 2011. SSA selected a
relative of the claimant to be his representative payee and paid over $32,000 in past-
due benefits for 30 months. This claimant will now receive over $1,100 per month in
benefits and was entitled to Medicare benefits in July 2010.

In another example, a man from Oregon filed for both DI and SSI benefits in
October 2007. The DDS allowed his claim in December 2007 based on a mental
disability. SSA processed the SSI claim and began payments in February 2008, but as
of July 2010, the Agency had not paid the DI claim. We referred this case to SSA in
July 2010, and the Agency began paying the DI benefits in October 2010. The claimant
was due over $39,000 in past-due benefits over 48 months, with about $16,000 paid to
the claimant and about $23,000 used to repay SSI payments issued during this time
period. Before our referral, this claimant was receiving $674 per month in SSI
payments. As of May 2011, the claimant was receiving $858 per month in DI benefits.

In another example, a man from Illinois filed for DI benefits in April 2007. After denials
at the initial and reconsideration levels, the ALJ partially approved his claim in
August 2009. The disability decision stated that his back disorder began in
February 2007 and ended in August 2008. We referred this case to SSA in
November 2010 because the Agency had not paid the claim. A few months later, SSA
completed work on this claim and calculated a total amount of past-due benefits of over
$30,000. Of this amount, SSA paid over $16,000 to the claimant, over $8,000 to
another person on the record, and over $8,000 to the claimant’s attorney.


11
  In our review of CY 2006 cases, we found that 45 claimants did not receive their benefits because of
employee error that occurred while SSA staff processed the individuals’ claims.
12
  Some individuals cannot manage their finances because of their age, mental, and/or physical
impairments. Therefore, Congress granted SSA the authority to appoint a representative payee, which
can be a person or an organization, to receive and manage benefits on an individual’s behalf. See
POMS, GN 00501.005 C.
Page 6 - The Commissioner


PENDING CASES

As of May 2011, SSA was working on 211 cases. Although these cases were still
pending as of the date of this review, the Agency calculated past-due benefits of over
$1.1 million in 85 of these cases. The average past-due benefit was $12,958; and
these past-due benefits ranged from a low of $132 to a high of $56,468. These past-
due benefits occurred over an average of 24 months, ranging from 1 to 88 months.

For example, a woman from Minnesota, who was already receiving SSI payments, filed
for DI benefits in June 2004, and the Agency denied her claim. The Agency reopened
and allowed her claim under a mental disorder as of May 2005 but did not take action to
pay the claim. We referred this case to SSA in November 2010. In May 2011, SSA
effectuated payment for the beneficiary in the amount of $691 per month in DI benefits,
which will reduce the amount of the monthly SSI payment. The Agency had not
completed work on this claim, but evidence on the record indicates that past-due
benefits will total over $56,000. 13

In another example, a woman from Massachusetts filed for DI and SSI disability benefits
in April 2009. The DDS allowed her claim at the reconsideration level in
December 2009 based on a mental disorder that started in April 2008. The Agency
processed this allowance only for the SSI claim while taking no action on the DI claim.
We referred this case in November 2010, and a few months later, SSA began paying
$882 per month in DI benefits instead of $493 in SSI payments. The Agency had not
completed work on this claim, but evidence on the record indicates that past-due
benefits will total over $25,000.13

CONCLUSION AND RECOMMENDATION
Our review of allowance decisions issued in CYs 2003 through 2005 and 2007 through
2009 found SSA had not paid some beneficiaries as of 2011—between 1 and 8 years
after the decisions to allow the claims. These cases represent only a very small percent
of the 8 million allowance decisions issued in these years. The Agency calculated past-
due benefits of $4.8 million to 296 of these claimants, and more than $1.1 million is due
to 85 other claimants.

We recommend that SSA complete its work on the remaining cases of the 1,847 unpaid
claimants we identified, and ensure all past-due benefits are paid to beneficiaries as
appropriate.




13
     A portion of these past-due benefits will be used to repay the SSI payments issued.
Page 7 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendation. See Appendix D for the Agency’s comments.




                                    Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Disability Allowances, 2003 Through 2009

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
AC       Appeals Council
ALJ      Administrative Law Judge
C.F.R.   Code of Federal Regulations
CY       Calendar Year
DDS      Disability Determination Services
DI       Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                               Appendix B

Disability Allowances, 2003 Through 2009
The charts below show all disability decisions processed in years 2003 through 2009. 1

         FISCAL YEAR 2003 WORKLOAD DATA: DISABILITY
                          DECISIONS




1
  Charts were prepared by the Office of Disability Program Management Information. Percents may not
total 100 due to rounding.


                                              B-1
FISCAL YEAR 2004 WORKLOAD DATA: DISABILITY
                 DECISIONS




                  B-2
FISCAL YEAR 2005 WORKLOAD DATA: DISABILITY
                 DECISIONS




                  B-3
FISCAL YEAR 2006 WORKLOAD DATA: DISABILITY
                 DECISIONS




                  B-4
FISCAL YEAR 2007 WORKLOAD DATA: DISABILITY
                 DECISIONS




                  B-5
FISCAL YEAR 2008 WORKLOAD DATA: DISABILITY
                 DECISIONS




                  B-6
FISCAL YEAR 2009 WORKLOAD DATA: DISABILITY
                 DECISIONS




                  B-7
                                                                                     Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.
•   Reviewed prior Office of the Inspector General reports.
•   Obtained files of all disability claims with an initial, reconsideration, hearings, or
    Appeals Council allowance in Calendar Years 2003 through 2005 and 2007 through
    2009. 1 From these files, we:

         Identified 8,504 Disability Insurance claimants medically allowed for disability
          payments but not receiving them as of 2010, even though it appeared SSA
          should have paid the claim.
         Identified 524 Supplemental Security Income claimants medically allowed for
          disability payments but not receiving them as of 2010, even though it
          appeared SSA should have paid the claim.
         Reviewed SSA mainframe queries and conducted further analysis to identify
          1,847 cases that appeared to need corrective action, as these claimants did
          not receive payment for their medical allowance issued in Calendar Years
          2003 through 2005 and 2007 through 2009. 2
         Referred these 1,847 cases to SSA’s Office of Operations for review and
          appropriate action. (We sent SSA 792 cases from June to August 2010 and
          the remaining 1,055 cases in November 2010.)
         Reviewed these 1,847 cases to determine whether SSA took action to correct
          the case. If it appeared SSA took action, we calculated the amount of past-
          due benefits and quantified the number of months the case was underpaid.

We conducted our audit between July 2010 and May 2011 in Boston, Massachusetts.
The entities audited were the offices of SSA’s Regional Commissioners under the Office
of the Deputy Commissioner for Operations. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to


1
 The files of initial and reconsideration claims included records for the Social Security number holder and
others who filed on his or her record. The files of hearings level and appeals council level claims included
only records for the Social Security number holder.
2
  We were able to exclude most cases. For example, some claimants (1) had received benefits for their
medical allowance and were no longer eligible or (2) were never entitled to disability benefits because
they did not meet the non-medical eligibility requirements.


                                                    C-1
provide a reasonable basis for our findings and conclusions based on our audit
objective. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




                                          C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM

Date:      May 25, 2011                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Disability Insurance and Supplemental Security
           Income Claims Allowed But Not Paid” (A-01-10-10177)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“DISABILITY INSURANCE AND SUPPLEMENTAL SECURITY INCOME CLAIMS
ALLOWED BUT NOT PAID” (A-01-10-10177)

We offer the following response to your recommendation.

Recommendation

Complete its work on the remaining cases of the 1,847 unpaid claimants we identified and ensure
all past-due benefits are paid to beneficiaries as appropriate.

Response

We agree.




                                             D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Senior Auditor

   Kevin Joyce, IT Specialist

   David Mazzola, Audit Manager

   Frank Salamone, Senior Auditor

   David York, Program Analyst

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-10-10177.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
